                                            71868             Federal Register / Vol. 72, No. 243 / Wednesday, December 19, 2007 / Proposed Rules

                                            20151–1715. http://www.nro.gov/foia/                    MacDill Air Force Base, FL 33621–5323.                recommendations and proposals
                                            index.html                                              http://www.socom.mil/foia/.                           through the Federal eRulemaking Portal
                                              AP2.2.16. National Security Agency.                     AP2.3.12. U.S. Strategic Command. U.S.              at http://www.regulations.gov.
                                            National Security Agency/Central Security               Strategic Command, Attn: J01031 (FOIA), 901           (Attachments should be in Microsoft
                                            Service, FOIA/PA Services, DC34, 9800                   SAC Blvd., Suite 1E5, Offutt Air Force Base,
                                            Savage Road, Suite 6248, Fort George G.                 NE 68113–6000. http://www.stratcom.mil/
                                                                                                                                                          Word, if possible.)
                                            Meade, MD 20755–6248. http://                           foia/.                                                   2. By regular, express, or overnight
                                            www.nsa.gov/foia/index.cfm.                               AP2.3.13. U.S. Transportation Command.              mail. You may send written comments
                                              AP2.2.17. Inspector General of the                    U.S. Transportation Command, Attn: TCCS–              to the following address: Office of
                                            Department of Defense. Inspector General of             IM, 508 Scott Drive, Scott Air Force Base, IL         Inspector General, Department of Health
                                            the Department of Defense, Chief FOIA/PA                62225–5357. http://www.transcom.mil/                  and Human Services, Attention: OIG–
                                            Office, 400 Army Navy Drive, Room 201,                  foia.cfm.                                             112–N, Room 5246, Cohen Building,
                                            Arlington, VA 22202–4704. http://                         AP2.4. National Guard Bureau                        330 Independence Avenue, SW.,
                                            www.dodig.osd.mil/fo/Foia/foia.htm.                       The National Guard Bureau FOIA
                                              AP2.3. DoD Field Activity And Combatant
                                                                                                                                                          Washington, DC 20201. Please allow
                                                                                                    Requester Service Center is unique in that it
                                            Command Addresses                                                                                             sufficient time for mailed comments to
                                                                                                    processes its own initial FOIA requests;
                                              Although the below FOIA Requester                     however, FOIA appeals are handled either by           be received before the close of the
                                            Service Centers are OSD Components for the              the Department of the Army or the                     comment period.
                                            purposes of the FOIA, these Centers respond             Department of the Air Force. The address is:             3. By hand or courier. If you prefer,
                                            directly to the public on initial requests.             Chief, National Guard Bureau, Attn: NGB–              you may deliver, by hand or courier,
                                            Accordingly, initial requests should be sent            SDA (FOIA), 1411 Jefferson Davis Highway,             your written comments before the close
                                            to the addresses indicated.                             Arlington, VA 22202–3231. http://                     period to Office of Inspector General,
                                              AP2.3.1. DoD TRICARE Management                       www.ngb.army.mil/sitelinks/foia.aspx.                 Department of Health and Human
                                            Activity. TRICARE Management Activity,
                                                                                                      Dated: December 11, 2007.                           Services, Cohen Building, 330
                                            Attention: Freedom of Information Act
                                            Officer, 16401 East Centretech Parkway,                 L.M. Bynum,                                           Independence Avenue, SW.,
                                            Aurora, CO 80011–9043. http://                          Alternate OSD Federal Register Liaison                Washington, DC 20201. Because access
                                            www.tricare.mil/tmaprivacy/foia.cfm.                    Officer, DoD.                                         to the interior of the Cohen Building is
                                              AP2.3.2. Chairman, Armed Services Board               [FR Doc. E7–24359 Filed 12–18–07; 8:45 am]            not readily available to persons without
                                            of Contract Appeals. Chairman, Armed                                                                          Federal Government identification,
                                                                                                    BILLING CODE 5001–06–P
                                            Services Board of Contract Appeals, Skyline                                                                   commenters are encouraged to schedule
                                            Six Room 703, 5109 Leesburg Pike, Falls                                                                       their delivery with one of our staff
                                            Church, VA 22041–3208.                                                                                        members at (202) 358–3141.
                                              AP2.3.3. Defense Technical Information                DEPARTMENT OF HEALTH AND                                 For information on viewing public
                                            Center. Defense Technical Information                   HUMAN SERVICES
                                            Center, Attn: FOIA Program Manager, 8725
                                                                                                                                                          comments, please see the
                                            John J. Kingman Road, Suite 0944, Fort                                                                        Supplementary Information section.
                                                                                                    Office of Inspector General
                                            Belvoir, VA 22062–6218. http://                                                                               FOR FURTHER INFORMATION CONTACT: Joel
                                            www.dtic.mil/dtic/foia/.                                42 CFR Part 1001                                      Schaer, (202) 619–0089, OIG
                                              AP2.3.4 DoD Education Activity. DoD                                                                         Regulations Officer.
                                            Education Activity, Freedom of Information              Solicitation of New Safe Harbors and                  SUPPLEMENTARY INFORMATION:
                                            Act Officer, 4040 North Fairfax Dr.,                                                                          Submitting Comments: We welcome
                                            Arlington, VA 22203–1635. http://
                                                                                                    Special Fraud Alerts
                                            www.dodea.edu/foia/.
                                                                                                                                                          comments from the public on
                                                                                                    AGENCY:  Office of Inspector General                  recommendations for developing new or
                                              AP2.3.5. U.S. Central Command. U.S.                   (OIG), HHS.
                                            Central Command, CCJ6–RD (FOIA), 7115                                                                         revised safe harbors and Special Fraud
                                            South Boundary Blvd., MacDill Air Force                 ACTION: Notice of intent to develop                   Alerts. Please assist us by referencing
                                            Base, FL 33621–5101. http://                            regulations.                                          the file code OIG–112–N.
                                            www.centcom.mil/sites/foia/default.aspx.                                                                         Inspection of Public Comments: All
                                              AP2.3.6. U.S. European Command. U.S.                  SUMMARY: In accordance with section                   comments received before the end of the
                                            European Command, FOIA Requester Service                205 of the Health Insurance Portability               comment period are available for
                                            Center, Unit 30400 Box 1000, APO AE 09131.              and Accountability Act (HIPAA) of                     viewing by the public. All comments
                                            http://www.eucom.mil/english/FOIA/                      1996, this annual notice solicits                     will be posted on
                                            main.asp.                                               proposals and recommendations for
                                              AP2.3.7. U.S. Joint Forces Command. U.S.                                                                    http://www.regulations.gov as soon as
                                                                                                    developing new and modifying existing                 possible after they have been received.
                                            Joint Forces Command, Code J024, 1526                   safe harbor provisions under the Federal
                                            Mitscher Ave., Ste. 200, Norfolk, VA 23511–                                                                   Comments received timely will also be
                                            5100. http://www.jfcom.mil/about/foia.htm.
                                                                                                    anti-kickback statute (section 1128B(b)               available for public inspection as they
                                              AP2.3.8. U.S. Northern Command. U.S.                  of the Social Security Act), as well as               are received at Office of Inspector
                                            Northern Command, FOIA Officer, 250                     developing new OIG Special Fraud                      General, Department of Health and
                                            Vandenberg Street, Suite B016, Peterson Air             Alerts.                                               Human Services, Cohen Building, 330
                                            Force Base, CO 80914–38040. http://                     DATES:   To assure consideration, public              Independence Avenue, SW.,
                                            www.northcom.mil/foia/home.htm.
                                                                                                    comments must be delivered to the                     Washington, DC 20201, Monday
                                              AP2.3.9. U.S. Pacific Command. U.S.
                                            Pacific Command, J151 FOIA, Box 64017,                  address provided below by no later than               through Friday of each week from 8:30
                                            Camp H. M. Smith, HI 96861–4017. http://                5 p.m. on February 19, 2008.                          a.m. to 4 p.m. To schedule an
                                            www.pacom.mil/foia/homepage.shtml.                      ADDRESSES: In commenting, please refer                appointment to view public comments,
                                              AP2.3.10. U.S. Southern Command. U.S.                 to file code OIG–112–N. Because of staff              phone (202) 619–0089.
                                            Southern Command, SCJ1–A (FOIA), 3511                   and resource limitations, we cannot                   I. Background
rwilkins on PROD1PC63 with PROPOSALS




                                            NW .91st Avenue, Miami, FL 33172–1217.                  accept comments by facsimile (FAX)
                                            http://www.southcom.mil/AppsSC/pages/                                                                         A. OIG Safe Harbor Provisions
                                            foia.php.
                                                                                                    transmission.
                                              AP2.3.11. U.S. Special Operations                        You may submit comments in one of                    Section 1128B(b) of the Social
                                            Command. U.S. Special Operations                        three ways (no duplicates, please):                   Security Act (the Act) (42 U.S.C. 1320a–
                                            Command, SOCS–SJS–I/FOIA Requester                         1. Electronically. You may submit                  7b(b)) provides criminal penalties for
                                            Service Center, 7701 Tampa Point Blvd.,                 electronic comments on specific                       individuals or entities that knowingly


                                       VerDate Aug<31>2005   19:24 Dec 18, 2007   Jkt 214001   PO 00000   Frm 00041   Fmt 4702   Sfmt 4702   E:\FR\FM\19DEP1.SGM   19DEP1
                                                              Federal Register / Vol. 72, No. 243 / Wednesday, December 19, 2007 / Proposed Rules                                            71869

                                            and willfully offer, pay, solicit or                      In developing these Special Fraud                   or modified safe harbor provisions, such
                                            receive remuneration in order to induce                 Alerts, OIG has relied on a number of                 as the extent to which the proposals
                                            or reward business reimbursable under                   sources and has consulted directly with               would affect an increase or decrease
                                            the Federal health care programs. The                   experts in the subject field, including               in—
                                            offense is classified as a felony and is                those within OIG, other agencies of the                 • Access to health care services,
                                            punishable by fines of up to $25,000                    Department, other Federal and State                     • The quality of services,
                                            and imprisonment for up to 5 years. OIG                 agencies, and those in the health care                  • Patient freedom of choice among
                                            may also impose civil money penalties,                  industry.                                             health care providers,
                                            in accordance with section 1128A(a)(7)                                                                          • Competition among health care
                                                                                                    C. Section 205 of Public Law 104–191
                                            of the Act (42 U.S.C. 1320a–7a(a)(7)), or                                                                     providers,
                                            exclusion from the Federal health care                     Section 205 of Public Law 104–191                    • The cost to Federal health care
                                            programs, in accordance with section                    requires the Department to develop and                programs,
                                            1128(b)(7) of the Act (42 U.S.C. 1320a–                 publish an annual notice in the Federal                 • The potential overutilization of the
                                            7(b)(7)).                                               Register formally soliciting proposals                health care services, and
                                               Since the statute on its face is so                  for modifying existing safe harbors to                  • The ability of health care facilities
                                            broad, concern has been expressed for                   the anti-kickback statute and for                     to provide services in medically
                                            many years that some relatively                         developing new safe harbors and                       underserved areas or to medically
                                            innocuous commercial arrangements                       Special Fraud Alerts.                                 underserved populations.
                                            may be subject to criminal prosecution                     In developing safe harbors for a                     In addition, we will also take into
                                            or administrative sanction. In response                 criminal statute, OIG is required to                  consideration other factors, including,
                                            to the above concern, the Medicare and                  engage in a thorough review of the range              for example, the existence (or
                                            Medicaid Patient and Program                            of factual circumstances that may fall                nonexistence) of any potential financial
                                            Protection Act of 1987, section 14 of                   within the proposed safe harbor subject               benefit to health care professionals or
                                            Public Law 100–93, specifically                         area so as to uncover potential                       providers that may take into account
                                            required the development and                            opportunities for fraud and abuse. Only               their decisions whether to (1) order a
                                            promulgation of regulations, the so-                    then can OIG determine, in consultation               health care item or service or (2) arrange
                                            called ‘‘safe harbor’’ provisions,                      with the Department of Justice, whether               for a referral of health care items or
                                            specifying various payment and                          it can effectively develop regulatory                 services to a particular practitioner or
                                            business practices which, although                      limitations and controls that will permit             provider.
                                            potentially capable of inducing referrals               beneficial and innocuous arrangements
                                                                                                    within a subject area while, at the same              B. Criteria for Developing Special Fraud
                                            of business reimbursable under the                                                                            Alerts
                                            Federal health care programs, would not                 time, protecting the Federal health care
                                            be treated as criminal offenses under the               programs and their beneficiaries from                   In determining whether to issue
                                            anti-kickback statute and would not                     abusive practices.                                    additional Special Fraud Alerts, we will
                                            serve as a basis for administrative                                                                           also consider whether, and to what
                                                                                                    II. Solicitation of Additional New
                                            sanctions. OIG safe harbor provisions                                                                         extent, the practices that would be
                                                                                                    Recommendations and Proposals
                                            have been developed ‘‘to limit the reach                                                                      identified in a new Special Fraud Alert
                                            of the statute somewhat by permitting                      In accordance with the requirements                may result in any of the consequences
                                            certain non-abusive arrangements, while                 of section 205 of Public Law 104–191,                 set forth above, as well as the volume
                                            encouraging beneficial and innocuous                    OIG last published a Federal Register                 and frequency of the conduct that
                                            arrangements’’ (56 FR 35952, July 29,                   solicitation notice for developing new                would be identified in the Special Fraud
                                            1991). Health care providers and others                 safe harbors and Special Fraud Alerts on              Alert.
                                            may voluntarily seek to comply with                     December 11, 2006 (71 FR 71501). As                     A detailed explanation of
                                            these provisions so that they have the                  required under section 205, a status                  justifications for, or empirical data
                                            assurance that their business practices                 report of the public comments received                supporting, a suggestion for a safe
                                            will not be subject to liability under the              in response to that notice is set forth in            harbor or Special Fraud Alert would be
                                            anti-kickback statute or related                        Appendix D to the OIG’s Semiannual                    helpful and should, if possible, be
                                            administrative authorities.                             Report covering the period April 1,                   included in any response to this
                                               Existing OIG safe harbors describing                 2007, through September 30, 2007.1 OIG                solicitation.
                                            those practices that are sheltered from                 is not seeking additional public
                                                                                                    comment on the proposals listed in                    Daniel R. Levinson,
                                            liability are codified in 42 CFR part                                                                         Inspector General.
                                            1001.                                                   Appendix D at this time. Rather, this
                                                                                                    notice seeks additional                               [FR Doc. E7–24579 Filed 12–18–07; 8:45 am]
                                            B. OIG Special Fraud Alerts                             recommendations regarding the                         BILLING CODE 4150–04–P

                                              OIG has also periodically issued                      development of proposed or modified
                                            Special Fraud Alerts to give continuing                 safe harbor regulations and new Special
                                            guidance to health care providers with                  Fraud Alerts beyond those summarized
                                                                                                                                                          DEPARTMENT OF THE INTERIOR
                                            respect to practices OIG finds                          in Appendix D to the OIG Semiannual
                                            potentially fraudulent or abusive. The                  Report referenced above.                              Fish and Wildlife Service
                                            Special Fraud Alerts encourage industry                 A. Criteria for Modifying and
                                            compliance by giving providers                          Establishing Safe Harbor Provisions                   50 CFR Part 20
                                            guidance that can be applied to their
rwilkins on PROD1PC63 with PROPOSALS




                                                                                                      In accordance with section 205 of                   Service Regulations Committee
                                            own practices. OIG Special Fraud Alerts
                                                                                                    HIPAA, we will consider a number of                   Meeting
                                            are intended for extensive distribution
                                                                                                    factors in reviewing proposals for new
                                            directly to the health care provider                                                                          AGENCY:   Fish and Wildlife Service,
                                            community, as well as to those charged                    1 The OIG Semiannual Report can be accessed         Interior.
                                            with administering the Federal health                   through the OIG web site at http://oig.hhs.gov/       ACTION: Notice of meeting.
                                            care programs.                                          publications/semiannual.html.



                                       VerDate Aug<31>2005   19:24 Dec 18, 2007   Jkt 214001   PO 00000   Frm 00042   Fmt 4702   Sfmt 4702   E:\FR\FM\19DEP1.SGM   19DEP1
